March 31, 2010

DAVID C. FIELDS, SR.
DISTRICT MANAGER, MID-CAROLINAS CUSTOMER SERVICE DISTRICT

SUBJECT:          Audit Report – Continuing Use of Carrier Sequence Barcode Sorter
                  Machines at Delivery Units (Report Number DR-AR-10-004)

This report presents the results of our self-initiated audit reviewing the use of Carrier
Sequence Barcode Sorter (CSBCS) machines (Project Number 09XG026DR000) in the
Mid-Carolinas Customer Service District (district). Our objective was to evaluate the
business case for continuing to use CSBCS machines located in associate offices1 in
the district. This audit addresses financial and operational risk. See Appendix A for
additional information about this audit.

Conclusion

Although a business case exists for continued use of CSBCS machines in some
associate offices in the district, we concluded they can reduce 10 machines. While the
district previously reduced the number of CSBCS machines by 11 during the audit, it
had not yet fully evaluated moving more letter mail to the delivery barcode sorters
(DBCS) in the plants. See Appendix B for a detailed analysis of this topic.

We estimate the district could reduce mail processing and maintenance workhours, and
save more than $3 million as a result of eliminating 10 CSBCS machines. See
Appendix C for our monetary impact calculation.

We recommend the district manager, Mid-Carolinas Customer Service District:

1. Reduce 10 carrier sequence barcode sorters at selected associate offices as well as
   the associated workhours.

2. Evaluate mail processing operations on a recurring basis to identify further
   opportunities for cost savings and greater mail processing efficiencies.




1
 A post office in the service area of a processing and distribution center/facility (P&DC/F) which usually receives all
mail classes to and from the facility. Some associate offices have CSBCS machines in their delivery units and
process mail.
Continuing Use of Carrier Sequence Barcode                                     DR-AR-10-004
 Sorter Machines at Delivery Units


Management’s Comments

Management agreed with the findings, recommendations, and monetary impact.
Management stated that, with reduction in mail volume, they understand that cost-
savings measures are necessary to achieve financial success. The Mid-Carolinas
district is committed to identifying and capturing savings to ensure the Postal Service
continues to meet this challenge. Management stated they would discontinue using the
10 CSBCS machines over the next 90 days, but no later than June 19, 2010.
Management also indicated they were in agreement with our analysis that acquiring
DBCS stacker bins from other plants could allow them to bring in additional volume from
CSBCS sites. In subsequent discussion, management told us they would evaluate mail
processing operations on a recurring basis for cost-savings opportunities and greater
mail processing efficiencies. See Appendix F for management’s comments in their
entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report.

The OIG considers recommendation 1 significant; therefore, it requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, director, Delivery,
or me at 703-248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments




                                             2
Continuing Use of Carrier Sequence Barcode       DR-AR-10-004
 Sorter Machines at Delivery Units


cc: Patrick R. Donahoe
    Steven J. Forte
    Dean J. Granholm
    Jerry D. Lane
    Elizabeth Schaefer
    Linda M. Malone
    Sally K. Haring




                                             3
Continuing Use of Carrier Sequence Barcode                                                             DR-AR-10-004
 Sorter Machines at Delivery Units


                               APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service primarily uses two types of equipment to sort letter mail into Delivery
Point Sequencing (DPS).2 The DBCS machines are in P&DC/Fs (plants) and CSBCS
machines are in associate offices – both machines essentially perform the same
function.

        The DBCS is a multi-level, high-speed barcode sorter located in mail processing
         facilities designed to process mail in a fully barcoded environment. The machines
         usually have 190 to 238 bins.3 The DBCS has a throughput capacity of about
         39,000 pieces per workhour. The processing facilities also use DIOSS4 and
         Combined Input/Output Sub-System (CIOSS)5 machines to sort DPS mail.

        The CSBCS is a small, high-speed barcode sorter designed specifically for
         decentralized processing in associate offices and typically has 13 to 25 bins. The
         CSBCS has a throughput capacity of about 19,000 pieces per workhour.

The DBCS by design is more productive than the CSBCS. The DBCS has more stacker
units to sort letter mail than the CSBCS and requires less handling or passes6 to sort
into DPS. Fewer handlings or passes means employees can process more mail in less
time. The DBCS takes two handlings or passes7 to sort mail into DPS compared to the
CSBCS, which takes three to four handlings or passes. See Appendix E for more
information about the DPS mail flow.

Initially, the DPS strategy relied exclusively on centralized processing at mail processing
centers using the DBCS, but as mail volumes were projected to increase, the Postal
Service purchased over 3,700 CSBCS machines in the early to mid-1990s to
accommodate decentralized processing in associate offices. Headquarters Operations
Technical and Systems Integration Support personnel began an initiative during fiscal
year (FY) 2009 to reduce the number of CSBCS machines nationwide because of
declining mail volumes. Specifically, First-Class Mail® volume decreased to 177 billion
pieces in FY 2009 from 202 billion pieces (or nearly 13 percent) the previous fiscal year.
The Postal Service is estimating that, without significant changes, it will lose $7.8 billion
in FY 2010 based on delivering 11 billion fewer pieces of mail.

As part of the initiative, area and district personnel have been encouraged to look for
opportunities to reduce the number of CSBCS machines in use, especially at associate
2
  The process of sorting barcoded mail into the carrier’s walk sequence to eliminate manual sorting before beginning
street delivery.
3
  A bin(s) on automated equipment that collects mail after it is processed.
4
  A DBCS with expanded use of an Input/Output System.
5
  A letter sorting machine that is specifically designed to be used in the Postal Automated Redirection System and is
capable of both image input and result output functions.
6
  Mail is processed to a finer sortation by using each address’s delivery sequence number.
7
  During the first pass, Operation 918, mail is sorted in carrier route sequence on a DBCS. During the second pass,
Operation 919, mail is processed to a finer sortation.


                                                          4
Continuing Use of Carrier Sequence Barcode                                                           DR-AR-10-004
 Sorter Machines at Delivery Units


post offices within 50 miles of a P&DC/F. The Mid-Carolinas District currently has 121
CSBCS machines, which is the most of all districts nationwide.

See Table 1 for the distribution of CSBCS machines in the Mid-Carolinas District and
their associated processing sites.

                                  Table 1. Number of CSBCS Machines

                                                                     Number of
                                  Processing Site                     CSBCS
                                                                     Machines8
                              Charlotte P&DC                               71
                              Fayetteville P&DC                            22
                              Asheville P&DF                               20
                              Kinston P&DF                                  8
                                         Total                            121
                             Source: Mid-Carolinas District and Headquarters Operations

The district discontinued using 11 CSBCS machines during August 2009 based on a
request from the Capital Metro Area. The reduction of the 11 CSBCS machines was
estimated to save 10,833 delivery, maintenance, and mail processing workhours
annually. No additional workhour costs were attributed to the P&DC/Fs from this
additional mail volume.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate the business case for continuing to use CSBCS machines
located in associate offices within the district. Our audit scope covered operations
during the period October 1, 2008, through October 31, 2009.

Specifically we:

          Reviewed and analyzed Web End-of-Run Maintenance Activity Reporting and
           eFlash workhours data.

          Observed mail processing operations on Tours 1 and 3 at the Charlotte and
           Fayetteville P&DCs.

          Reviewed applicable documentation, policies, and procedures such as:

                   Decision Analysis Report for the CSBCS.
                   Title 39, U.S.C., Part III, Chapter 20.
                   Run Plan Generator Users Guide.
                   DPS Tool Manual.


8
    We listed the associated plant; however, CSBCS machines are located in associate post offices.


                                                           5
   Continuing Use of Carrier Sequence Barcode                                               DR-AR-10-004
    Sorter Machines at Delivery Units


                   Carrier Sequence Barcode Sorter Equipment Excessing Policy, MMO-
                    030-07, April 10, 2007

          Analyzed average daily volumes during October 2009.

          Reviewed operational data for DPS (machine availability, throughputs, and
           clearance times).

          Reviewed DBCS/DIOSS/CIOSS capacity for additional volume opportunities.

          Held meetings with district and plant personnel to obtain information and
           reviewed DPS data and the DPS Tool with plant, district, and headquarters staff.

   We conducted this performance audit from July 2009 through March 2010 in
   accordance with generally accepted government auditing standards and included such
   tests of internal controls as we considered necessary under the circumstances. Those
   standards require that we plan and perform the audit to obtain sufficient, appropriate
   evidence to provide a reasonable basis for our findings and conclusions based on our
   audit objective. We believe that the evidence obtained provides a reasonable basis for
   our findings and conclusions based on our audit objective.

   We discussed our observations and conclusions with management officials on
   December 11, 2009, January 27, 2010, and February 9, 2010, and included their
   comments where appropriate. We relied on data supplied by the processing plants and
   obtained from Postal Service database systems, but did not directly audit the systems.
   However, we performed a limited data integrity review to support our data reliance and
   checked for accuracy with Postal Service managers.

   PRIOR AUDIT COVERAGE

   The OIG has issued one report related to our objective.

                                           Final
                           Report         Report     Monetary
     Report Title         Number           Date       Impact                    Report Results
Efficiency of Carrier   NO-AR-06-005     8/2/2006   $3.7 million   Further opportunities to use the DBCS to
Sequence Barcode                                                   process mail exist in the Seattle District
Sorters                                                            at the North Bend and Blaine Area
                                                                   Offices and the South Sound Delivery
                                                                   Distribution Center. Processing mail on
                                                                   the DBCS rather than the CSBCS would
                                                                   reduce mail processing and
                                                                   maintenance hours, increase processing
                                                                   efficiency, and improve use of the
                                                                   DBCS. We estimate using existing and
                                                                   anticipated DBCS capacity would save
                                                                   10,521 workhours. Management agreed
                                                                   with the recommendations.



                                                    6
Continuing Use of Carrier Sequence Barcode                                                             DR-AR-10-004
 Sorter Machines at Delivery Units


                                 APPENDIX B: DETAILED ANALYSIS

CSBCS Machine Reduction

The district discontinued using 11 CSBCS machines at associate offices during the
audit. However, we concluded a business case exists to eliminate an additional 10 of
the remaining 121 machines in associate offices.

The OIG’s analysis showed the district could process up to 122,651 more pieces of
letter mail in the P&DC/Fs rather than on CSBCS machines. Moving this mail to the
plants would eliminate the need for the CSBCS machines in certain associate offices
(see Table 2).

                 Table 2: Estimated Number of CSBCS Machines Discontinued
                                       Number of                       Potential
                        Average                        Estimated
                                       ZIP Codes                      Number of        Estimated       Estimated
Processing and         Daily First                      Potential
                                       Processed                      ZIP Codes        Potential       Number of
  Distribution           Pass                             Total
                                        on DBCS                          to be         Additional        CSBCS
Center/Facility         Volume9                        Letter Mail
                                       Machines                       Processed         Volume          Machines
   (P&DC/F)             October                         Volume10
                                        October                        on DBCS         First Pass     Discontinued
                         2009                          First Pass
                                          2009                        Machines
Charlotte P&DC11        1,490,860                94       1,531,30               95         40,970                   3
Fayetteville P&DC          780,005               48       808,274                50         28,269                   3
                  12
Asheville P&DF             342,509               31       376,970                35         34,461                   2
Kinston P&DF               306,352               16       325,303                17         18,951                   2
        Totals          2,919,726              189      3,042,377              197        122,651                   10

We considered the following factors in our analysis to allow for adding mail volume
without making changes to the P&DC/Fs’ Tour 1 workhours or mail processing time
deadlines. We found the following:

1. Maximizing DBCS machine capacity

         The Charlotte P&DC had available time to process additional mail on five of 25
          DBCS machines.

         The Fayetteville P&DC had available time to process additional mail on four of 14
          DBCS machines.


9
  The average daily volume shown in the chart is for the first pass, Operation 918, on the DBCS machines. In each
case, we also ensured there was sufficient capacity to process the second pass, Operation 919, and meet clearance
times.
10
   The potential volume is for first pass. We also ensured there was capacity to process the second pass.
11
   We used a 9 percent higher volume in analyzing the Charlotte P&DC because during January 2010 the P&DC has
been processing higher DPS volumes of available mail, including some delayed mail. It is not clear how long these
higher volumes might last and we wanted to take into account this condition.
12
   The first pass for some DPS mail is always processed before Tour 1 and not included in the total. In addition, some
other DPS mail is also sometimes processed before the start of Tour 1.


                                                          7
Continuing Use of Carrier Sequence Barcode                                                      DR-AR-10-004
 Sorter Machines at Delivery Units


          The Asheville P&DF had available time to process additional mail on three of
           seven DBCS machines.

          The Kinston P&DF had available time to process additional mail on one of six
           DBCS machines.

2. Changing sort plans to maximize machine capacity. Combining ZIP Codes where
   feasible creates longer sort plans, which maximize machine capacity.

3. Changing DPS Processing Time

          The district could process more mail at the P&DC/Fs if they changed operations
           and began DPS processing before Tour 1. We found the first pass, Operation
           918, did not begin until Tour 1 commenced, and did not always start at the
           beginning of the tour.

In addition, acquiring DBCS stacker bins (or even entire DBCS machines) from other
plants could allow P&DC/Fs to more easily bring in additional mail volume processed on
existing CSBCS machines. See Appendix D for more information about our analysis.

Considering these conditions, the district could reduce associated mail processing and
maintenance costs in delivery units. We estimate the district could save more than
$3 million in funds put to better use13 by reducing mail processing positions and
maintenance workhours and costs.




13
     Funds the Postal Service could use more efficiently by implementing recommended actions.


                                                          8
      Continuing Use of Carrier Sequence Barcode                                                            DR-AR-10-004
       Sorter Machines at Delivery Units


                                        APPENDIX C: MONETARY IMPACT

      We estimated the monetary impact of $3,011,956 in funds put to better use by
      discontinuing the use of 10 CSBCS machines at selected associate offices in the Mid-
      Carolinas District. This amount included an estimated cost savings of $2,618,488 from
      reducing mail processing clerk positions over 10 years and $393,468 in reduction of
      delivery mail processing workhours and maintenance costs over 2 years14 (see Table
      3).

                                          Table 3: Total Monetary Impact
                                                        Workhours
                                                          Saved                         2-Year
                                                                                                        2-Year
Processing                                 Number          from         10-Year       Projection
                                Miles                                                                Projection of    Estimated
 Center or       Associated               of CSBCS      Processing     Projection    on Reducing
                                from                                                                 Maintenance        Total
  Facility         Office                 Machines       on DBCS       (reducing     Maintenance
                               P&DC/F                                                                    Cost          Savings
 (P&DC/F)                                 Reduced        Machines        FTEs)        Workhours
                                                                                                       Savings
                                                             in                       (not FTEs)
                                                        P&DCs/Fs
Charlotte       Idewild           13           3           4,198       $1,411,290         $55,683          $27,526    $1,494,499
Fayetteville    Clinton           34           3           2,947          585,487          95,491           34,157      715,135
Asheville       Canton            13           2           2,582          621,711          53,210           11,442      686,363
Kinston         Havelock          55           2           1,321                 0        105,383           10,576      115,959
 Totals                                       10          11,048       $2,618,488        $309,767          $83,701    $3,011,956

               We calculated funds put to better use of Full-Time Equivalent (FTE) over 10
                years using the FY 2010 clerk level 6 fully loaded labor rate with an escalation
                factor of 0.013.

               The reduction of FTE mail processing clerk positions used a cash flow analysis
                based on clerk complement and clerk attritions from Web Entrerprise Information
                System for FYs 2005-2009. We used this to determine how many clerks are
                estimated to leave in future years.

               We used the discount rate of .035 based on the Postal Service’s Decision
                Analysis Report Factors (cost of borrowing rate).

               We calculated funds put to better use for reducing clerk mail handling hours not
                equivalent to a FTE using the clerk level 6 overtime rate for FY 2010 with an
                escalation factor of 0.013

               We used maintenance costs for FY 2009 for the 2-year projection.




      14
         We used a 10 year projection for savings associated with reduction in FTE positions. The 2-year projection
      involved maintenance hours and did not include a reduction in FTE positions.




                                                                9
Continuing Use of Carrier Sequence Barcode                                                             DR-AR-10-004
 Sorter Machines at Delivery Units


            APPENDIX D: OIG ANALYSIS OF DBCS ADDITIONAL CAPACITY

We used two methods to analyze whether capacity exists to process letter mail more
efficiently on DBCS machines rather than CSBCS machines within certain districts’
operational windows.15

     1. Method 1: Mail volume and ZIP Codes in the sortation plan16 run on each type of
        machine (DBCS, DIOSS, CIOSS). To identify whether any additional capacity
        exists, we considered throughputs, machine available time, turn time, and
        clearance times.

     2. Method 2: The DPS Tool17 analyzes bin space, merging of boxes, possible
        deliveries, ZIP combinations and special carriers in addition to machine
        availability, throughputs,18 and clearance19 times within operational
        considerations. The DPS Tool attempts to create the maximum capacity for each
        DBCS machine. A baseline scenario was created for each processing site for the
        ZIP Codes they process. We then determined whether additional letter volume
        could be processed at the plant on DBCS machines within the current
        operational window.

Both methods in our analysis of additional volume opportunities at the P&DC/Fs
included the following:

        A review of the average daily letter mail volume during October 2009 and volume
         processed during January 2010. If volumes decline during FY 2010 and beyond,
         additional opportunities for capacity at the plant could be considered.

        We obtained machine availability times, throughputs, mandatory ZIP Code
         combinations, and clearance times from management at the P&DC/Fs. The
         agreed upon first pass throughputs of the P&DC/Fs for the DPS Tool ranged
         from 25,085 to 28,500. The target throughput goal for the Capital Metro Area for
         Operation 918, first pass DPS processing is 29,500. Increasing the throughputs
         of processing would provide additional volume opportunity.

        For additional CSBCS letter volume transferred into a P&DC/F from associate
         offices, the time spent sorting the mail into Carrier Route Sequence (Operation
         896) is no longer needed, which can make at least one of the DBCS machines
         available earlier for processing the first pass, Operation 918.



15
   Time mail must be processed to meet service standards.
16
   The combination of ZIP Codes currently processed together on a particular DBCS, DIOSS or CIOSS.
17
   The Postal Service developed an analytical tool to assist in the development of DPS sort schemes for letter mail
processing at the plants. We did not validate its assumptions and formulas.
18
   The number of pieces of mail processed per workhour.
19
   The latest time mail is planned to complete processing in order to make the proper planned dispatch or delivery
time.


                                                         10
Continuing Use of Carrier Sequence Barcode                                DR-AR-10-004
 Sorter Machines at Delivery Units


      In addition, when bringing in CSBCS mail volume, dispatch times for ZIP Codes
       previously processed on CSBCS machines can be moved closer to or at 6 a.m.,
       since time is no longer needed for mail processing at the associate offices.




                                             11
Continuing Use of Carrier Sequence Barcode                                                                     DR-AR-10-004
 Sorter Machines at Delivery Units



               APPENDIX E: DELIVERY POINT SEQUENCE MAIL FLOW

                               DPS Mail Flow                          DPS Mail Flow
                                 on DBCS                               on CSBCS

                                                                          Mail Processing
                                      Mail Processing
                                                                              Center
                                          Center




                                    Mail is carrier route             Mail is carrier route
                                  sequenced on a Delivery           sequenced on a Delivery
                                 Barcode Sorter (1st Pass*)         Barcode Sorter (1st Pass)




                                    Mail is finalized to                 Associate Office
                                 delivery point sequence
                                      after 2nd Pass


                                                                         Mail is sent to
                                                                     Associate Office for 2nd
                                     Associate Office                   Pass on CSBCS




                             (No mail processing conducted)        Mail is processed on CSBCS
                                                                            for a 3rd Pass



                      Carrier leaves office                         Mail is finalized to delivery
                        to deliver mail                            point sequence after 4th Pass
                                                                             on CSBCS




                                                                                       Carrier leaves office
                                                                                         to deliver mail




                                                              12
Continuing Use of Carrier Sequence Barcode                 DR-AR-10-004
 Sorter Machines at Delivery Units



                       APPENDIX F: MANAGEMENT’S COMMENTS




                                             13
Continuing Use of Carrier Sequence Barcode        DR-AR-10-004
 Sorter Machines at Delivery Units




                                             14
